                            DEPARTMENT OF HEALTH &. HUMAN SERVICES                                                                       Office of Inspector General
(4"RVIC~"~
 '..
 '",
       .l~""JO                                                                                                                           Washington, D.C. 20201




                                                                                  MAY 28 2009



                 TO:                     Charlene Frizzera
                                         Acting Administrator
                                         Centers for Medicare & Medicaid Services


                 FROM:                   ¡;fltwrt~
                                         Deputy Inspector General
                                                                 /S/


                                           for Evaluation and Inspections


                 SUBJECT:                Memorandum Report: "Fraud and Abuse Safeguards for State Medicaid
                                         Nonemergency Medical Transportation Services,"
                                         OEI -06-07 -00320



                 This memorandum report provides information about the safeguards that State Medicaid agencies
                 use to prevent and detect Medicaid nonemergency medical transportation (NEMT) fraud and
                 abuse. It also identifies the numbers, types, and outcomes ofNEMT fraud and abuse cases that
                 State Medicaid Fraud Control Units (MFCU) investigated in recent years.l Federal regulations
                 (42 CFR § 431.53) require each State to ensure that Medicaid beneficiaries have necessary
                 transportation to and from medical providers and to describe, in its State plan, the methods that the
                 State wil use to meet this requirement. The Offce ofInspector General (OIG) and other entities
                 have identified significant vulnerabilities to fraud and abuse in State NEMT programs.2 To
                 safeguard against fraud and abuse, Federal regulations (42 CFR § 455.13) require that each State
                 Medicaid agency establish methods for identifying and investigating suspected fraud and abuse
                 cases and referring them to law enforcement.

                 In a survey of State Medicaid agencies, we found that most States concentrate their safeguard
                 activities on screening providers, requiring prior approval for services, and implementing methods
                 to prevent and detect improper payments. Further, the 29 States that use contracted transportation
                 brokers (hereinafter referred to as "brokers") to administer their NEMT benefit reported using
                 multiple techniques -to monitor brokers, including complaint investigation, periodic contract
                 renewal, and broker reporting requirements. State MFCUs provided data indicating that they


                 1 A MFCU is a single identifiable entity of
                                                             State government, annually certified by the Secretary of the Department of Health and Human
                 Services (HHS), that conducts a statewide program for the investigation and prosecution of health care providers that defraud the Medicaid
                 program. Social Security Act § 1903(q), 42 U.S.c. 1396b(q).
                 2 "Review of
                                Wisconsin's Non-Emergency Medical Transportation Costs for Services Provided by American United Taxicab, Inc. for January I
                 Through December 3 1,2005," August 4,2008, A-05-08-00040; Government of      the District of Columbia, Offce of the Inspector General, "Audit
                 of the Maintenance of   Medical Necessity Forms for Non-Emergency Transportation of    Medicaid Recipients," September 29,2006,05-2-
                 18HC(b); Missouri State Auditor, "Controlling Costs For Medical Equipment and Transportation," October 2005,2005-73.



                 OEI-06-07-00320                  Fraud and Abuse Safeguards for Medicaid Nonemergency Medical Transportation
Page 2 – Charlene Frizzera


investigated a combined total of 509 NEMT fraud and abuse cases from 2004 to 2006, with the
most common types involving billing for services not rendered and unspecified overbilling. 3

BACKGROUND

Pursuant to Title XIX of the Social Security Act, the Medicaid program provides medical
assistance to low-income individuals and individuals with disabilities. The Federal and State
Governments jointly fund the Medicaid program. At the Federal level, the Centers for Medicare &
Medicaid Services (CMS) administers the program. Each State administers its Medicaid program
in accordance with a CMS-approved State plan. 4 Although the State has considerable flexibility in
designing and operating its Medicaid program, it must comply with applicable Federal
requirements. Pursuant to 42 CFR § 440.170, the transportation benefit includes transportation
expenses and related travel expenses deemed necessary by the State Medicaid agency to secure
medical examinations and treatment for a beneficiary. Examples of modes of transportation that
States authorize include ambulances; specialized motor vehicles (e.g., wheelchair-accessible vans);
and common carriers (e.g., taxis, personal vehicles, and public transportation).

The Deficit Reduction Act of 2005 gave States the option to “[establish] a non-emergency
medical transportation brokerage program in order to more cost-effectively provide”
transportation for Medicaid beneficiaries. 5 The statute requires that brokers:

•      be selected through competitive bidding;
•      have oversight procedures to monitor beneficiary access and complaints and ensure that
       transport personnel are licensed, qualified, competent, and courteous;
•      be subject to regular auditing and oversight by the States; and
•      comply with all prohibitions on referrals and conflicts of interest established by the Secretary
       of HHS.

Beyond these requirements, States have considerable discretion regarding what services they
contract with brokers to provide and how they oversee brokers. For example, States may choose to
use brokers in only limited geographic locations, such as metropolitan areas, or they may use
brokers to handle all aspects of NEMT services statewide.

Fraud and Abuse Safeguards
Federal regulations require that each State Medicaid agency establish a program integrity (PI)
program that includes methods for identifying and investigating suspected fraud and abuse cases
and referring them to law enforcement. 6 States must also take action to investigate and resolve

3 The “unspecified overbilling” category of fraud cases were reported by State MFCUs as overbilling cases without
further detail.
4
  The State plan is a comprehensive written statement submitted by the State Medicaid agency describing the nature and scope of its Medicaid
program and giving assurance that it will be administered in conformity with all applicable laws, regulations, and official issuances
(42 CFR § 430.10).
5
    P.L. No. 109-171 § 6083(a)(3), adding § 1902(a)(70) to the Social Security Act, effective February 8, 2006.
6
    42 CFR § 455.13.




OEI-06-07-000320                Fraud and Abuse Safeguards for Medicaid Nonemergency Medical Transportation
Page 3 – Charlene Frizzera


cases involving overpayments, including recovery of overpayments made to providers.7 If a State
detects evidence of potential provider fraud, it must refer such a case to the State MFCU or other
appropriate law enforcement agency, such as a local district attorney. 8 The MFCU is responsible
for reviewing the referrals it receives from the State Medicaid agency and other sources to
determine whether the issues involved merit criminal and/or civil investigation. Although States
must meet Federal requirements, they have flexibility in the design and execution of their Medicaid
PI programs. States that use brokers to administer and safeguard NEMT may also include
mechanisms for oversight of those brokers.

Recent reports regarding fraud and abuse in State NEMT programs highlight some of the types of
fraud and abuse and the importance of effective PI activities. For example, an OIG report found
that 18 of 100 sample NEMT claims submitted by a taxicab company in Wisconsin in 2005 were
paid inappropriately for NEMT services on dates when beneficiaries did not receive Medicaid
services. 9 OIG estimated that almost $700,000 in improper NEMT claims for the year could be
attributed to the single provider. A report issued by the District of Columbia Office of Inspector
General found that the program’s failure to maintain medical necessity forms for over $16 million
in NEMT services or to perform any onsite visits or reviews constituted “a serious breach of basic
internal controls.” 10 Likewise, a report issued by the Missouri State Auditor found that the broker
hired to arrange NEMT services for beneficiaries failed to arrange the most appropriate mode of
transportation and acted to maximize its own profit. 11

METHODOLOGY

Scope
For this memorandum report, we examined all 50 States and the District of Columbia (hereinafter
referred to as “States”) to identify their safeguards to prevent and detect NEMT fraud and abuse.
We also examined the numbers, types, and outcomes of fraud and abuse cases that State MFCUs
investigated from 2004 to 2006.

Data Collection and Analysis
We obtained written responses from all State Medicaid agencies regarding their NEMT program
operations and the safeguards in place at the time of their responses (i.e., July to November 2007).
States provided documentation to support their written responses, and we conducted followup as
necessary to clarify information reported.

We obtained information regarding 2004–2006 NEMT fraud and abuse cases from
49 State MFCUs. Regarding the remaining two States, the Idaho MFCU was created in 2007 and,

7
    42 CFR § 455.16.
8
    42 CFR §§ 455.15 and 455.21.
9
 “Review of Wisconsin’s Non-Emergency Medical Transportation Costs for Services Provided by American United Taxicab, Inc. for January 1
Through December 31, 2005,” August 4, 2008, A-05-08-00040.
10
  Government of the District of Columbia, Office of the Inspector General, “Audit of the Maintenance of Medical Necessity Forms for
Non-Emergency Transportation of Medicaid Recipients,” September 29, 2006, 05-2-18HC(b).
11 Missouri State Auditor, “Controlling Costs For Medical Equipment and Transportation,” October 2005, 2005-73.




OEI-06-07-000320              Fraud and Abuse Safeguards for Medicaid Nonemergency Medical Transportation
Page 4 – Charlene Frizzera


therefore, did not investigate any cases from 2004 to 2006 and North Dakota does not operate a
federally supported MFCU.

We analyzed information reported by State Medicaid agencies and MFCUs to identify:
• States’ fraud and abuse safeguards for NEMT services;
• States’ use of brokers and States’ activities for oversight of these brokers; and
• numbers, types, and outcomes of NEMT fraud and abuse cases investigated by State MFCUs
   from 2004 to 2006.

Limitations
This report relies on information reported by State Medicaid agencies and MFCUs, which we did
not independently verify. Further, determining the extent to which States and/or their contractors
actually implemented reported safeguards and oversight activities was beyond the scope of the
study.

Standards
This study was conducted in accordance with the “Quality Standards for Inspections” issued by the
President’s Council on Integrity and Efficiency and the Executive Council on Integrity and
Efficiency (now Council of the Inspectors General on Integrity and Efficiency).

RESULTS

States Reported Focusing Medicaid Nonemergency Medical Transportation Safeguards on
Screening Providers, Requiring Prior Approval of Services, and Implementing Methods To
Prevent and Detect Improper Billing
All States reported conducting a variety of safeguard activities to protect against fraud and abuse of
NEMT services. However, most States and their brokers concentrate their safeguard activities on
three areas: screening providers, requiring prior approval for services, and implementing methods
to prevent and detect improper billing. Depending upon the State, responsibility for conducting
these activities lies with the State Medicaid agency itself, other State agencies, brokers, or some
combination of these entities.

Screening Providers. Forty-five States reported conducting NEMT provider-screening activities in
2007 to safeguard their NEMT programs from fraud and abuse. The remaining six States did not
enroll NEMT providers. All 45 States that enroll NEMT providers check applicant information
against the OIG list of excluded providers, and 43 States require transportation providers to
disclose relevant prior criminal convictions.12 (See Table 1.)




12
   OIG maintains a list of all individuals and entities currently excluded under various legal authorities from participation in Federal health care
programs.




OEI-06-07-000320               Fraud and Abuse Safeguards for Medicaid Nonemergency Medical Transportation
Page 5 – Charlene Frizzera



        Table 1: Provider-Screening Activities of States That Enrolled Medicaid
        Nonemergency Medical Transportation Providers
                                                                                                           Percentage of States
                                                                                            Number                That Enrolled
        Safeguard                                                                          of States           Providers (n=45)
        Check for exclusion from Federal health care programs                                       45                          100%
        Require disclosure of criminal convictions                                                  43                           95%
        Require special license, certification, or training                                         38                           84%
        Check driving records                                                                       32                           71%
        Conduct onsite visits                                                                       30                           67%
        Conduct criminal background checks                                                          28                           62%
        Require periodic provider reenrollment                                                      24                           53%
       Source: OIG analysis of survey responses and documents submitted by State Medicaid agencies in 2007.



Thirty-eight States require providers to obtain specific licenses or certifications, including drivers’
licenses, vehicle inspections, or certifications for operating passenger transportation vehicles.
Additionally, 10 of these 38 States require special licensure and/or training, such as defensive
driving, first aid and cardiopulmonary resuscitation, passenger assistance, special needs assistance,
and others. Thirty-two States check the driving records of NEMT providers, and 30 States conduct
site visits to verify the legitimacy of providers. Site visits include both random and targeted
inspections of provider locations by State agencies and/or brokers. Twenty-eight States require
NEMT providers to submit to criminal background checks. Twenty-four States require providers to
periodically reenroll, which typically involves some combination of completing new applications,
updating driving record checks, conducting new criminal background checks, and/or renewing
professional licenses and certifications.

Requiring Prior Approval. Forty-six States reported that they require beneficiaries to obtain prior
approval before using some or all NEMT services. The five remaining States do not require prior
approval. Prior approval typically involves verification of the beneficiary’s Medicaid eligibility,
the medical necessity of the trip, and the beneficiary’s lack of alternative transportation options.
Thirty-one of the forty-six States require prior approval for all NEMT services, although these
States may authorize “standing orders” for certain types of recurring trips, e.g., trips to and from
dialysis treatment. The remaining 15 of the 46 States require prior approval for only certain
NEMT services. A common approach among these States is to have lists of “standard” NEMT
services that do not require prior approval. A beneficiary must seek prior approval only when
transportation needs differ from the standard list. For example, in one State, a beneficiary’s trip to
a Medicaid-covered physician’s office does not require prior approval, whereas prior approval is
required for trips out of the State; trips exceeding certain mileage limits (e.g., 50 miles); and trips
requiring food, lodging, or unusual transportation modes (such as air ambulance).

Implementing Methods To Prevent and Detect Improper Billing. Fifty States reported
implementing one or more methods to prevent and detect improper billing. 13 (See Table 2.) Forty
States reported operating public hotlines for beneficiaries or others to either pass along fraud and
13
   State Medicaid agency officials from the one remaining State reported that its NEMT program relies on a capitated payment to its
transportation broker that shifts much of the risk of improper NEMT payments from the State to the broker.




OEI-06-07-000320              Fraud and Abuse Safeguards for Medicaid Nonemergency Medical Transportation
Page 6 – Charlene Frizzera


abuse tips or make complaints about NEMT providers or services. States direct complaints to PI
staff or contractors for further investigation. Depending upon the State, investigations may include
unannounced audits, medical record reviews, referral to the MFCU, or other action. Thirty-six
States reported conducting reviews of randomly selected NEMT claims after payment has been
made and/or all claims submitted by specific providers. Such reviews may occur periodically (e.g.,
monthly) or only in response to a complaint. Claims reviews can result in requests for further
records from transportation providers or further audits.

  Table 2: Methods To Prevent and Detect Medicaid Nonemergency Medical
  Transportation Improper Billing
                                                                                         Number         Percentage of
 Method                                                                                 of States        States (n=51)
 Fraud or complaint hotline                                                                      40              78%
 Claims review                                                                                   36              71%
 Data analysis and monitoring                                                                    35              69%
 Prepayment edits                                                                                23              45%
 Source: OIG analysis of survey responses and documents submitted by State Medicaid agencies in 2007.



Another common fraud and abuse detection method, reported by 35 States, involves analysis of
claims data. Data analysis methods include simple comparisons between physician billings and
charges as well as more sophisticated data mining. For example, use of computer algorithms
enables States to monitor an individual provider’s billing patterns and usage trends over time.
These algorithms can repeat certain claims analysis routines for each provider or each claim and
flag those that meet predetermined criteria for suspicious activity or inappropriate billing, such as a
surge in a provider’s billing or reimbursement. If data analysis uncovers aberrant patterns or
suspected fraud and abuse activity, State Medicaid agencies or their brokers can conduct further
audits or refer the case to the MFCU for investigation. Finally, 23 States reported using
prepayment edits specifically designed to process NEMT claims. Prepayment edits are automated
programs that check multiple elements of each claim for specific inconsistencies or errors that, if
present, trigger the denial of the claim. For example, a State using a prepayment edit might deny a
NEMT claim because the beneficiary did not receive any other Medicaid services on the same day.

The 29 States That Used Brokers Reported Using Complaint Investigations, Reporting
Requirements, Contract Renewal, and Other Techniques To Oversee Brokers
Twenty-nine States reported that brokers administered all or part of their NEMT programs at the
time of the States’ responses in 2007. The remaining 22 States did not use brokers, but 4 of these
States were in various stages of developing brokerage programs. Of the 29 States using brokers,
25 States estimated that brokers provided at least half of their NEMT services and the 4 remaining
States estimated that brokers provided less than half of their NEMT services. The primary services
that States contracted with brokers to provide include screening and enrolling providers, arranging
NEMT services for beneficiaries, processing NEMT claims, tracking and reporting NEMT usage to
the States, conducting PI activities, and vetting prior approval requests.

States reported using multiple techniques to ensure that brokers administered NEMT services
appropriately and helped to safeguard the programs from fraud and abuse as required by the States.



OEI-06-07-000320            Fraud and Abuse Safeguards for Medicaid Nonemergency Medical Transportation
Page 7 – Charlene Frizzera


(See Table 3.) All 29 States reported using at least three of the seven oversight activities listed in
Table 3. For example, 26 States reported that they investigate complaints made by beneficiaries or
others about their NEMT services. Twenty-five States required their brokers to periodically, e.g.,
quarterly, report to the State Medicaid agencies administrative data, such as the numbers of hotline
telephone calls and complaints received, the number of trips provided, and certain details about
each trip. Twenty-five States also periodically renew their broker contracts, giving them the
opportunity to evaluate broker performance and rebid the contracts if necessary. Twenty States
reported that their staffs conduct onsite reviews of brokers, which included random audits of claims
data, inspection of vehicles, and monitoring of call center activity. Twenty-one States reported
using information generated through complaint hotlines to monitor brokers. Finally, 19 States
reported service trip verification activities that include audits of a wide range of broker records,
such as records of prior authorization, proof of medical necessity, appropriate routes taken,
verification of beneficiaries’ medical appointments, and other records.


      Table 3: Oversight Mechanisms of Twenty-nine States That Use Medicaid
      Nonemergency Medical Transportation Brokers
                                                                                                               Percentage of
                                                                                         Number              States That Use
      Oversight Mechanism                                                               of States             Brokers (n=29)

      Complaint investigation                                                                   26                     90%
      Regular reporting requirements                                                            25                      86%
      Periodic contract renewal                                                                 25                     86%
      Beneficiary satisfaction survey                                                           23                     79%
      Complaint hotline                                                                         21                     72%
      Onsite broker review                                                                      20                     69%
      Service trip verification                                                                 19                     66%
      Source: OIG analysis of survey responses and documents submitted by State Medicaid agencies in 2007.


State Medicaid Fraud Control Units Reported Investigating 509 Medicaid
Nonemergency Medical Transportation Fraud and Abuse Cases of Various Types From
2004 to 2006
State MFCUs provided data regarding the types and outcomes of their NEMT fraud and abuse
investigations from 2004 to 2006. Forty-two MFCUs reported a total of 509 NEMT fraud and
abuse cases, two States did not operate MFCUs during this period, and the remaining seven
MFCUs did not report any NEMT fraud and abuse cases. These seven MFCUs indicated that
NEMT fraud was not tracked separately from other types of Medicaid fraud and, therefore, could
not be distinctly reported.

The cases investigated by MFCUs from 2004 through 2006 included a variety of types of fraud
and abuse. The two most common types involved provider billing fraud, including billing for
services not rendered (104 cases) and unspecified overbilling (93). Other common types
included upcoding (57), undocumented or forged documentation (32), billing for excess mileage
(31), and nonmedical use of NEMT services (25). Table 4 contains examples of these and other
frequently reported types of fraud and abuse involving providers.



OEI-06-07-000320            Fraud and Abuse Safeguards for Medicaid Nonemergency Medical Transportation
Page 8 – Charlene Frizzera



Of the 509 cases reported by State MFCUs, 371 (73 percent) were closed and the remaining
138 cases (27 percent) were open at the time the MFCUs submitted data to OIG during the
second half of 2007. States either reported that open cases were under active investigation or
provided no further detail about the status of open cases.




OEI-06-07-000320    Fraud and Abuse Safeguards for Medicaid Nonemergency Medical Transportation
Page 9 – Charlene Frizzera



Table 4: Types of Medicaid Nonemergency Medical Transportation Provider Fraud and
Abuse Cases Investigated by State Medicaid Fraud Control Units
                                                                                                             Number
Fraud and Abuse Type and Examples                                                                           of Cases
Billing for Services Not Rendered                                                                                104
     •    Billing for trips that never actually occurred.
     •    Billing for an additional attendant (i.e., a beneficiary caretaker) when none was
          provided.
Unspecified Overbilling                                                                                          93
   •   Engaging in deceptive billing practices to receive excess payment.
   •   Misrepresenting invalid trips and services to receive excess payment.
Upcoding                                                                                                         57
   •   Billing for an attendant when one was not necessary.
   •   Billing for an ambulance when a less expensive form of transportation could have
       been used.
   •   Billing for nonambulatory support services when the beneficiary was ambulatory.
Undocumented Trips and/or Forged Documents                                                                       32
   •  Missing and forged supporting documentation of trips, including transportation
      provider trip logs, signed certificates of medical necessity, and signed transportation
      vouchers.
Billing for Excess Mileage                                                                                       31
     •    Billing for a 30-mile trip when a 15-mile trip was actually taken.
Nonmedical Use of NEMT Services                                                                                  25
   •  Billing for services when taking a beneficiary to pick up groceries or run other errands.
Billing Without a License and/or Using Unauthorized Providers                                                    23
     •   Providing services through unauthorized personnel. In these cases, NEMT providers
         might be unlicensed, have bad driving histories, have failed drug tests, or have been
         convicted of felonies.
Double Billing for the Same Service                                                                              21
   •   Submitting two claims for the same service by changing the service date on one of the
       claims.
Kickbacks                                                                                                        19
    •  Providing free rides for nursing home providers to gain the business of the Medicaid
       beneficiaries who live there.
    •  Paying beneficiaries to use a particular service.
    •  Paying anyone who has influence over beneficiaries’ use of services, including
       caseworkers, nursing home or hospital transportation coordinators, dialysis center
       employees, and rehabilitation center employees.
Ineligible or Deceased Beneficiary                                                                               15
     •   Inappropriately providing rides to the family members of beneficiaries.
     •   Billing Medicaid for services for deceased beneficiaries.
Patient Abuse or Neglect                                                                                          9
    •    Physically or sexually abusing beneficiaries.
    •    Leaving beneficiaries unattended or deserting them.
    •    Not picking up beneficiaries in a timely manner, resulting in missed appointments.
Notes:
    •  Ninety additional cases did not fit meaningfully into the fraud and abuse types listed above.
    •  The numbers of cases do not sum to 509 because some involved circumstances that fit into more
       than one fraud and abuse type.
Source: OIG analysis of fraud and abuse case information submitted by State MFCUs in 2007.




OEI-06-07-000320              Fraud and Abuse Safeguards for Medicaid Nonemergency Medical Transportation
Page 10 – Charlene Frizzera


The outcomes of the closed cases are listed in Table 5. Among the 371 closed cases,
150 (40 percent) were reported by MFCUs as dismissed because the allegations were
unsubstantiated after investigation. Another 68 cases (18 percent) were investigated and closed
without prosecution, typically because there was insufficient evidence for prosecution. Forty-
three of the 371 closed cases (12 percent) resulted in criminal convictions. In 37 cases (10
percent), the parties agreed to civil settlements; typically in these cases, defendants reimbursed
Medicaid for disallowed expenses but avoided criminal conviction. Outcomes for the remaining
cases either were not reported to OIG by the MFCUs (54 cases), resulted in referral to separate
law enforcement agencies (10 cases), or did not fit into any of the other categories (9 cases).

  Table 5: Outcomes of Closed Medicaid Nonemergency Medical Transportation Fraud
  Cases Investigated by State Medicaid Fraud Control Units From 2004 to 2006
                                                                                                    Percentage of
                                                                                          Number    Closed Cases
 Outcome                                                                                 of Cases         (n=371)
 Allegations unsubstantiated                                                                  150            40%
 Cases not prosecuted                                                                          68            18%
 Convictions                                                                                   43            12%
 Civil settlements reached                                                                     37            10%
 Outcomes not reported by MFCUs                                                                54            15%
 Referred to other law enforcement agencies                                                    10             3%
 Other                                                                                          9             2%
 Source: OIG analysis of fraud and abuse case information submitted by State MFCUs in 2007.



CONCLUSION

This memorandum report provides information that CMS may find useful in its oversight of the
Medicaid program. All State Medicaid agencies reported multiple NEMT fraud and abuse
safeguards, particularly screening providers, requiring prior approval of services, and
implementing methods to detect and prevent improper billing. Twenty-nine States contracted with
brokers and most frequently reported using complaint investigations, reporting requirements, and
periodic contract renewals to oversee their brokers. Despite these measures, NEMT fraud and
abuse has been and may continue to be a problem across States, with State MFCUs reporting that
they investigated 509 NEMT fraud cases from 2004 to 2006. Billing for services not rendered and
unspecified overbilling were the most common NEMT fraud and abuse cases investigated by
MFCUs.

This report is being issued directly in final form because it contains no recommendations. If you
have comments or questions about this report, please provide them within 60 days. Please refer to
report number OEI-06-07-00320 in all correspondence.




OEI-06-07-000320             Fraud and Abuse Safeguards for Medicaid Nonemergency Medical Transportation
